<html>
<title> - NRC'S IMPLEMENTATION OF THE FUKUSHIMA NEAR-TERM TASK FORCE RECOMMENDATIONS AND OTHER ACTIONS TO ENHANCE AND MAINTAIN NUCLEAR SAFETY</title>
<body><pre>[Senate Hearing 113-769]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-769

      NRC'S IMPLEMENTATION OF THE FUKUSHIMA NEAR-TERM TASK FORCE 
   RECOMMENDATIONS AND OTHER ACTIONS TO ENHANCE AND MAINTAIN NUCLEAR 
                                 SAFETY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 4, 2014

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://www.gpo.gov/fdsys




                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-804 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 ROGER WICKER, Mississippi
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
EDWARD J. MARKEY, Massachusetts

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JUNE 4, 2014
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     3
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     4
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     5
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     7
Inhofe, Hon. James, U.S. Senator from the State of Oklahoma......     8
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    10
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware, 
  prepared statement.............................................   280

                               WITNESSES

Macfarlane, Allison M., Chairman, Nuclear Regulatory Commission..    11
    Prepared statement...........................................    14
    Responses to additional questions from Senator Boxer.........    33
    Response to an additional question from Senator Carper.......    84
    Response to an additional question from Senator Booker.......    85
Responses to additional questions from:
    Senator Vitter...............................................    86
    Senator Inhofe...............................................   124
    Senator Sessions.............................................   134
Svinicki, Kristine L., Commissioner, Nuclear Regulatory 
  Commission.....................................................   142
    Responses to additional questions from Senator Boxer.........   143
    Response to an additional question from Senator Carper.......   149
Responses to additional questions from:
    Senator Vitter...............................................   150
    Senator Sessions.............................................   175
Apostolakis, George, Commissioner, Nuclear Regulatory Commission.   178
Magwood, William D., IV, Commissioner, Nuclear Regulatory 
  Commission.....................................................   178
Responses to additional questions from:
    Senator Boxer................................................   181
    Senator Carper...............................................   192
    Senator Vitter...............................................   193
    Senator Sessions.............................................   227
Ostendorff, William C., Commissioner, Nuclear Regulatory 
  Commission.....................................................   231
    Response to an additional question from Senator Carper.......   233
    Responses to additional questions from Senator Vitter........   234

 
      NRC'S IMPLEMENTATION OF THE FUKUSHIMA NEAR-TERM TASK FORCE 
   RECOMMENDATIONS AND OTHER ACTIONS TO ENHANCE AND MAINTAIN NUCLEAR 
                                 SAFETY

                              ----------                              


                        WEDNESDAY, JUNE 4, 2014

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m. in room 
406, Dirksen Senate Building, Hon. Barbara Boxer (chairman of 
the committee) presiding.
    Present: Senators Boxer, Cardin, Whitehouse, Markey, 
Vitter, Inhofe, Barrasso, and Sessions.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The committee will come to order.
    Today, the EPW Committee is holding its ninth oversight 
hearing with the NRC since the earthquake, tsunami and nuclear 
meltdown in Japan.
    It has been more than 3 years since the Fukushima disaster 
and Japan is still struggling to clean up the site. The massive 
underground ice wall intended to prevent radioactive water from 
flowing into the sea will take a year to finish and cost more 
than $300 million.
    We must learn from the tragic events in Fukushima and take 
all necessary steps to ensure the safety of nuclear facilities 
in the United States. Today, I am going to continue to focus on 
whether the NRC has done that.
    It is vitally important that the NRC remain committed to 
its mission which is ``to ensure the safe use of radioactive 
materials for beneficial civilian purposes while protecting 
people and the environment.''
    Based on a review of the progress made since the Fukushima 
disaster and on whether additional steps need to be taken by 
NRC to ensure the safety of the people and the environment, 
which is your charge, I am afraid that you may have lost sight 
of your mission.
    The Fukushima Near Term Task Force made up of NRC senior 
staff recommended 12 measures to upgrade safety in the wake of 
the Fukushima meltdowns. In August 2011, the former NRC 
chairman testified before our committee that the NRC should be 
able to act on those recommendations within 90 days and that 
they could be implemented within 5 years.
    As of today, I think I have a chart here, the NRC has 
failed to require reactor operators to complete implementation 
of a single one of the post-Fukushima safety measures. This is 
scandalous. Some reactor operators are still not in compliance 
with the safety requirements that were in place before 
Fukushima. The NRC has completed its own action on only four of 
the 12 task force recommendations.
    Your team, that you praise all the time, told you that you 
have to do this. This is unacceptable, this delay, and it puts 
the safety of the American people at risk. I am sure you know 
what these are but we have these for you.
    I also have serious concerns about the safety of spent 
nuclear fuel. NRC's own study showed that the consequences of a 
fire at a spent nuclear fuel pool can be as serious as a severe 
accident at an operating reactor.
    Not only does NRC allow that fuel to be stored in spent 
fuel pools indefinitely, NRC is considering requests from 
decommissioning reactor operators for exemptions from emergency 
response measures designed to protect nearby communities.
    While the Nuclear Energy Institute, in a letter sent to me 
yesterday claimed that these exemptions are granted only when 
``special circumstances'' exist at a facility, the truth is 
that never has the NRC denied even one waiver request. It 
rubber stamps them every single time a reactor shuts down.
    I have introduced three bills with Senators Markey and 
Sanders to increase the safety of spent nuclear fuel and 
improve the decommissioning process. These are not theoretical 
concerns.
    On the same day that this committee held a hearing on this 
topic last month, an out of control wildfire was burning a half 
a mile away from the San Onofre plant. Those are the people of 
California, millions and millions of them. This plant is asking 
for a waiver so they don't have to deal with any type of 
emergency response.
    My concern that NRC's commitment to identify and remedy 
safety problems is also highlighted by my investigation into 
the installation of defective equipment at San Onofre. For 
example, I learned that the NRC staff was preparing to allow 
the restart of one of the reactors before it had received a 
single answer to any of the technical safety questions it asked 
Southern California Edison to submit, a continuing of the 
pattern of doing everything that we are asked to do by the 
industry.
    This oversight investigation I am conducting is important, 
not only to get to the bottom of the problems at San Onofre, 
but to avoid disastrous problems like this in the future. That 
is a concern that whistleblowers at NRC feel they have no 
recourse but to contact Congress to report safety problems and 
that is what they are doing, ladies and gentlemen, because 
NRC's internal procedures for addressing these concerns are 
broken.
    Remarkably, NRC is continuing to obstruct my investigation 
by withholding documents that the committee has a right to 
receive. Let me be clear. The NRC has no legal right whatsoever 
to refuse to provide the committee with these documents. Today, 
I will make available a comprehensive analysis of this 
conclusion.
    In order for the nuclear industry to maintain the 
confidence of people, we have a lot of people here who are very 
strong supporters of the nuclear industry, I believe it is 
critical that you step up to the plate on safety.
    NRC's recent track record does not inspire confidence and 
that does not bode well because at the end of the day, the 
American people don't want to have a reactor near them because 
of these problems and the industry is just not going to be 
there in the future. There are a lot of people on this 
committee who want to see the industry in the future.
    I do look forward to asking you some more questions. With 
that, I call on Senator Vitter.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Chairman Boxer, for convening 
today's hearing and I want to thank our NRC commissioners for 
your work, your dedication and for being here to testify.
    Lately, various members on this committee have been very 
active in fundamentally attempting how the NRC manages itself 
and our Nation's nuclear power electricity generating 
facilities. In recent months, we have seen legislation, letters 
and statements from some of my colleagues in favor of new, 
costly and, in my view, usually unnecessary regulations.
    Today, I want to urge our commissioners to be precise and 
direct with your thoughts on these initiatives. You and your 
staff are the experts, we are not. We depend on your expertise, 
so I urge you to recommit to using the best available science 
and facts to ensure that any new rules and regulations are 
necessary and appropriate for our fleet which happens to have a 
long track record of safety.
    There exists a baseline standard that the Commission should 
meet when considering new regulations. I want to commend the 
Commission for basing their recent vote to eliminate further 
generic assessments to expedite the transfer of spent fuel from 
pools to dry storage on facts and sound science.
    While some of my colleagues may disagree with the 
Commission and myself on this issue, it is important to note 
that the NRC staff, who recommended elimination of these 
generic assessments, had extensively studied the issue and 
compiled all available data to make the best possible 
recommendation.
    As most of you are aware, this past Monday, EPA 
Administrator Gina McCarthy and President Obama released new 
regulations for carbon emissions from existing power plants as 
part of the President's Climate Action Plan.
    While the President's efforts to kill coal fire generation 
are obvious and already underway, I am really concerned about 
another and somewhat more subversive and under cover effort 
which is ongoing to really cripple the nuclear industry.
    When he first announced the Climate Action Plan, the 
President notoriously stated that he supports an all of the 
above approach. I think the disingenuous nature of this claim 
really requires only a cursory review of recent actions by the 
Administration, including the nuclear side.
    For the nuclear sector, the work being done to undermine 
the Waste Confidence Rule and to kill the Yucca Mountain 
project is a clear example of a long term strategy to shut down 
most or all of our Nation's nuclear power.
    Another example is the recent 316(b) rule for cooling water 
intake systems. Although EPA's rule this time around may not 
look like it will at the critical impact many in the 
environmental community had hoped, it will certainly be 
litigated and whatever deal the EPA cuts behind closed doors in 
that process will assuredly be worse.
    I firmly believe that the nuclear factor should play a role 
in meeting our domestic energy needs safely and with the 
confidence of the American people. However, I am concerned that 
some Senate Democrats are using these hearings to provide cover 
for efforts, quite frankly, to kill nuclear generation which 
has only served to decrease the output in capacity of our 
Nation's reliable nuclear fleet.
    Ironically, these shutdowns will increase greenhouse gas 
emissions as States struggle to find other baseload power.
    Finally, I want to State my concern on the lack of 
communication from NRC and the Administration about the re-
nomination of Commissioner Apostolakis whose term is up at the 
end of this month, as well as a replacement for Commissioner 
Magwood when he vacates his seat later this year.
    Keeping these positions filled by qualified individuals 
must remain a priority to ensure the safety of our constituents 
and for our Nation's economy. I urge the Administration to act 
on this quickly so that the Commission can continue this 
important work without interruption or distractions.
    Again, thanks very much for being here. Thanks for your 
work. I look forward to your expert testimony.
    Senator Boxer. Thank you, Senator.
    Senator Cardin.

          OPENING STATEMENT OF HON. BENJAMIN CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Madam Chair, thank you very much for 
conducting this hearing. Let me thank all the Commissioners for 
being here. I thank you very much for your public service.
    To follow up on Senator Vitter's point, I do think we can 
have less pollution in our air and reduce carbon. We can do it 
in a way that would help public health, in a way that will 
create more jobs, and we can do it with nuclear energy in a 
safe way. I think all of the above are very important.
    This hearing is a timely hearing for many reasons. As the 
Chairman pointed out, we have a responsibility with regard to 
public safety to make sure the Nuclear Regulatory Commission is 
operating with top priorities to protect the public safety and 
people in our community.
    It is also timely because of the Administration's 
announcements on their power plant rules about our commitment 
to reduce our carbon emissions. Nuclear energy is an important 
part of that. I think all of that comes together in today's 
hearing and I very much appreciate this opportunity.
    Nuclear energy is an extremely important part of our energy 
supply in this Country. Twenty percent of our electricity is 
from nuclear power; 60 percent of our carbon free electricity 
is produced through nuclear energy. It is a critical part of 
our energy sufficiency in this Country and therefore, we need 
to do this in a way that is mindful of the safety of the people 
of our Country.
    We have about 100 reactors today. Two units are at Calvert 
Cliffs in Maryland and obviously of major concern to me. The 
Nuclear Regulatory Commission is homed in my State of Maryland 
and we are very proud of the people who work there. It is 
consistently ranked as one of the best places to work which I 
think reflects the management at the Commission and we are very 
proud of that.
    As we conduct this oversight hearing, let me point out a 
couple of trends. First, we have gone through a very difficult 
time of sequestration, government shutdown, pay freezes and 
that has had an impact on your work force. We expect the very 
best to be in this field.
    I am concerned about the impact of the recent government 
policies on the budget has had on your capacity to retain the 
very best people so that we can carry out the mission of public 
safety and nuclear power in this Country.
    I welcome your candid views as to where we are in regard to 
your ability to attract and retain the very best in order to 
ensure the safety of the people of this Country and to be at 
the forefront of nuclear technology and, as Senator Vitter 
said, using the best science and information to make sure we 
are doing what is right.
    On the other side of that equation, there has been a change 
in your mission over the period of the last couple of decades. 
The number of reactors is not what we predicted them to be. 
That affects your overall mission and how you have adjusted to 
the realities of the number of reactors we have in our Country.
    The handling of nuclear spent materials, waste, has changed 
dramatically over the last couple decades. What has been your 
adjustment to your mission in order to make sure you have 
adequate resources to carry out those missions?
    I welcome this hearing so that we can carry out our 
responsibility of oversight to make sure you have the tools 
necessary to not only provide the best for our Country, we know 
we are the leaders in the world and what we are doing with 
nuclear regulation and second, whether because of the change in 
mission, we should be looking at a different way of making sure 
you have the adequate tools to carry out your responsibilities.
    I look forward to your testimony and I thank you all for 
being here.
    Senator Boxer. Thank you, Senator.
    Senator Sessions.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you very much, Chairman Boxer and 
Ranking Member Vitter.
    Madam Chairman, I know you are concerned about safety and 
that is an important issue. You will be challenged to meet 
those standards that we expect of the board but the nuclear 
industry, I have to say, represents a vital part of our energy 
mix.
    It produces no carbon emissions. In a week when the 
President has unveiled regulations demanding a 30 percent 
reduction from 2005 levels of CO2 by 2030, we surely should be 
discussing the role that nuclear power can play in reaching 
those goals.
    In fact, we have an excellent safety record. I do believe 
it should never be forgotten that despite all the dangers and 
lives lost in other energy sources, we have never had an 
individual lost or killed as a result of a nuclear power 
generating accident, zero, and one have been made sick, to my 
knowledge.
    This is a tremendous safety record and a tremendous 
environmental record. The risks involved in the safe management 
of nuclear power have been reduced. This Commission has been 
responsible for that. You have been watching this carefully. 
You are professionals and you are experienced.
    You have a right and a duty to hold these industries and 
businesses accountable but you also have a duty and a 
responsibility to listen to them. If they provide good 
information that helps you make the plant safer at less cost, 
you should be able to listen and respond to that.
    According to the Energy Information Agency, the industry 
produces 20 percent of all our electricity and 60 percent of 
all carbon free electricity. The continued work of the NRC to 
follow the D.C. Circuit Court's order in Aiken County regarding 
the licensing of Yucca Mountain is of vital importance.
    As the Court stated, ``Because Congress did not enact new 
legislation and because Congress sets the policy, not the 
Commission, regarding the storage of nuclear waste, it is clear 
the Commission must promptly continue with the legally mandated 
licensing process for disposal of waste.''
    I hope you will continue to move forward with that. Already 
the United States has spent $15 billion on Yucca Mountain, 
according to the GAO, $15 billion, and we have not been able to 
utilize that effectively.
    The United States has had to pay $2 billion so far, an 
amount that could grow to $50 billion according to the 
congressional Research Service, for claims from the 
government's failure to deal with the nuclear waste issue. This 
is an unbelievable series of events.
    I know the Majority leader opposes this but the local 
people in Nevada have supported it in the area of Yucca and the 
Congress has voted for it. It is time to move forward. The 
United States needs a robust nuclear generating fleet.
    I am really concerned that Kewaunee Power Station in 
Wisconsin, closed; Vermont Yankee, closed; Crystal River Unit 3 
in Florida, closed; SONGS Units 2 and 3 in California, closed; 
and Oyster Creek in New Jersey, to close by 2019. We only have 
Vogtle in Georgia and Summer in South Carolina being developed. 
This is a serious concern.
    Safety is a priority but clean, responsible, baseload 
nuclear power at a reasonable rate is so important for America.
    Madam Chairman, I appreciate the hearing. I know this 
Commission and its staff need to be held accountable but they 
have been doing a good job. We had a problem with the prior 
leader. He is gone now and Ms. Macfarlane is leading 
collegially and I think effectively. The board is effectively 
working together. I am proud of what they are doing and I 
believe we need to be asking ourselves what can we do 
reasonably and safely to deal with what appears to be not a 
growth in nuclear power but a decline. I think that would be a 
real tragedy for the people of the Country.
    Thank you.
    Senator Boxer. Thank you.
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman. Thank you and the 
Ranking Member for holding this important hearing on 
maintaining the safety of our nuclear facilities.
    A primary function of the Nuclear Regulatory Commission is 
to ensure that active and retired reactors are safe and secure.
    Safety concerns have been raised about onsite storage of 
nuclear material at decommissioned and operating plants alike. 
The 2011 meltdown of Japan's Fukushima Daiichi Nuclear Power 
Plant was a stark reminder of the hazard of large scale nuclear 
disaster.
    That episode prompted the NRC to establish a Near Term Task 
Force which outlined 12 safety recommendations to reduce 
vulnerabilities for American nuclear plants. In 2012, the NRC 
ordered nuclear plants to carry out the first set of 
recommendations which included updates to maintain cooling 
during external events, upgrades to reactor containment venting 
and better monitoring of spent fuel pools during accidents.
    The ability of our existing temporary nuclear waste storage 
to withstand natural disasters or other emergencies is of 
particular importance in Rhode Island. Although we do not have 
any nuclear power plants within our borders, we are within the 
50 mile congestion exposure pathway of Connecticut's Millstone 
Power Station and Massachusetts' Pilgrim Power Station.
    Both facilities sit on the Atlantic Coast and face 
heightened risk from extreme weather events, coastal flooding 
and sea level rise.
    Given Rhode Island's exposure, I joined several of my 
Senate colleagues in asking the Government Accountability 
Office to investigate the NRC's oversight of emergency 
preparedness at and near our Nation's nuclear power plants.
    The latest Fukushima safety reports also remind us that the 
technology at the world's nuclear facilities has remained 
largely stagnant over the past 60 years despite the 
availability of a number of significant advances.
    Boosting nuclear plant security will require taking 
advantage of innovative approaches. There is at least one 
advanced reactor concept, for example, that doesn't require 
water for cooling, so it can be built away from the shore line 
and the coastal elements.
    Our current nuclear fleet is aging. As you have heard from 
my colleagues, many reactors are going offline. Last year, four 
nuclear reactors closed in the U.S. and Vermont Yankee Nuclear 
Power Station will be decommissioned by the end of this year. 
When the energy produced by these reactors disappears from the 
grid, other sources have to fill the gap.
    To achieve the greenhouse reductions outlined in the 
President's Climate Action Plan, we need to explore all 
potential options and technologies for zero carbon base load 
power. Investing more in advanced nuclear technologies, things 
like small modular reactors and traveling wave reactors, may be 
a way to produce more greenhouse free energy while generating 
less waste.
    As we work to address both the safety of our existing fleet 
and provide reliable, base load power at a cost effective rate, 
we should apply the lessons of disasters like Fukushima in 
researching and developing advanced nuclear technologies.
    As Chairman of the Subcommittee on Clean Air and Nuclear 
Safety, I appreciate the opportunity to hear from all of the 
NRC Commissioners on this critical issue and I once again thank 
the Chairman and the Ranking Member for holding this important 
hearing.
    Senator Boxer. Thank you, Senator.
    We are so happy to see you, Senator Inhofe. Welcome.

            OPENING STATEMENT OF HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you. It is nice to be here.
    When I first became chairman, you will remember this well, 
of the Air and Nuclear Subcommittee in 1997, it is kind of 
interesting that we had not had an oversight hearing with the 
NRC in 10 years. We started having them and now we are having 
two in a matter of weeks about the same topic, decommissioning.
    Since 1997, we have increased our oversight hearings 
successfully. I am not worried about that. Oversight is a good 
thing but the aim seems to be to put the industry out of 
business rather than ensure that the NRC is conducting 
appropriate oversight.
    The NRC rightly looked into the issue of expediting spent 
fuel pools to dry cask following the Fukushima disaster. The 
staff ultimately determined that the United States' risk of 
radiological release from the compromise of spent fuel pools 
``is very low, about one time in ten million years or lower.'' 
The study predicted no early fatalities attributable to 
radiation exposure. That was the report of the staff and I 
think the majority of the Commissioners.
    According to researchers at NASF, that means it is less 
than the likelihood the earth will be struck by a civilization 
threatening meteor which has a risk of occurring only once 
every four million years. Appropriately, the NRC concluded 
``expediting movement of spent fuel from the pool does not 
provide a substantial safety enhancement.''
    When you consider that mandating this would cost the 
industry an additional $4 billion, it is right for the 
Commissioners to vote in favor of the staff's position. I am 
disappointed, however, that the NRC is going to spend even more 
time and resources studying this topic. It will only serve to 
waste additional taxpayer dollars.
    Nevertheless, I have full confidence in the ability of the 
NRC to handle the decommissioning process. I find concerning 
the majority's intent to undermine the public's confidence on 
this topic. Just this week, the President released his global 
warming regulations for existing power plants. The costs would 
be enormous, $51 billion in lost economic activity per year 
which translates to about 224,000 jobs.
    While the President's plan treats nuclear plants more 
favorably than others, I am not naive enough to believe that he 
and his environmental friends actually like the nuclear 
industry. As we all know, the President's model country for his 
green dream is Germany. Environmentalists there successfully 
used the disaster at Fukushima to enact a ban on nuclear power 
plants.
    Many environmentalists and members on the other side of the 
aisle are similarly positioned, pursuing every regulatory 
impulse to enact an unbearable cumulative cost of compliance 
while prohibiting the final construction of Yucca Mountain, 
leaving room for folks like the NRDC and others to challenge 
the issuance of additional licensing due to the waste 
confidence issue.
    Let's keep in mind that in Germany what happened as a 
result of all of this in that relatively short period of time, 
the cost per kilowatt hour has doubled in Germany from 18 to 
36. Germany currently has three times the cost per kilowatt 
hour as we do in this Country. We have a lot of people we 
represent who are very interested in that and it should be a 
major consideration.
    The nuclear power industry provides 20 percent of our total 
electricity generation here in America. If the environmental 
left is successful in shutting down this safe and inexpensive 
domestic source of energy, the American people will be the ones 
to suffer.
    The problem is the Administration is internally 
inconsistent in its energy policy. As Gina McCarthy touts 
greater reliance on nuclear generation to offset the phase out 
of coal in her ESPS rule, NRC is pushing the industry down the 
compliance rabbit holes of new regulation. I am talking about 
316(b), the flood and seismic and several others, that would 
actually have the effect of putting nuclear out of business.
    Sometimes I just wish that FERC, EPA, NRC and the Democrats 
would just sit down in a room and talk with each other about 
how we should power this machine called America if they are 
successful in these endeavors.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

             Statement of Hon. James Inhofe, U.S. Senator 
                       from the State of Oklahoma

    When I first became chairman of the Air and Nuclear 
subcommittee, it had been 10 years since we had an oversight 
hearing on the NRC. Now, we're having two in a matter of weeks 
about the same topic: decommissioning. Normally I wouldn't 
worry about that--oversight is a good thing--but the aim of 
this Committee seems to be to put the industry out of business 
rather than ensure that the NRC is conducting appropriate 
oversight. The NRC rightly looked into the issue of expediting 
spent fuel from pools to dry casks following the Fukushima 
Disaster, and the staff ultimately determined that the U.S. 
fleet's risk ``of a radiological release'' from the compromise 
of a spent fuel pool ``[is] very low (about 1 time in 10 
million years or lower) . . . [and] the study predicted no 
early fatalities attributable to radiation exposure.''
    According to researchers at NASA, that's less than the 
likelihood the earth will be struck by a civilization-
threatening meteor, which has a risk of occurring only ``once 
every few million years.'' Appropriately, the NRC staff 
concluded that ``expediting movement of spent fuel from the 
pool does not provide a substantial safety enhancement.'' And 
when you consider that mandating this would cost the industry 
an additional $4 billion, it was right for the Commissioners to 
vote in favor of the staff's position. I am disappointed, 
however, that the NRC is going to spend even more time and 
resources studying this topic. It will only serve to waste 
additional taxpayer dollars.
    Nevertheless, I have full confidence in the ability of the 
NRC to handle the decommissioning process, and I find it 
concerning that the majority is intent to undermine the 
public's confidence on this topic. Just this week the President 
released his global warming regulations for existing power 
plants, and their cost is going to be enormous: $51 billion in 
lost economic activity per year, which translates into about 
224,000 lost jobs. And while the President's plan treats 
nuclear plants more favorably than others, I'm not naive enough 
to believe that he and his environmental friends actually like 
the nuclear industry.
    I've long said that the President's model country for his 
green dream is Germany, and environmentalists there 
successfully used the disaster at Fukushima to enact a ban on 
nuclear power plants. Many environmentalists and members on the 
other side of the aisle are similarly positioned. . .  pursuing 
every regulatory impulse to enact an unbearable cumulative cost 
of compliance while prohibiting the final construction of Yucca 
Mountain, leaving room for folks like the Natural Resources 
Defense Council to challenge the issuance of additional 
licenses due to the Waste Confidence issue.
    We should be very wary of setting our sights on becoming 
Germany. As they've aggressively pursued the same Green Dream 
as the President, the cost of electricity has more than 
doubled, and prices there are now 300 percent higher than they 
are here in the United States. The nuclear power industry 
provides 20 percent of our total electricity generation, and if 
the environmental left is successful at shutting down this 
safe, inexpensive, domestic source of energy, then the American 
people will suffer for it. The problem is that the 
Administration is internally inconsistent in its energy 
policy--as Gina McCarthy touts greater reliance on Nuclear 
generation to offset a phaseout of coal in her ESPS rule 
Monday, NRC is pushing the industry down compliance rabbit 
holes of new regulations, 316(b), Flood and Seismic just to 
name a few, that threaten to put Nuclear out of business. 
Sometimes I just wish that FERC, NERC, EPA, NRC, and the 
Democrats would sit in a room and talk to each other about how 
we should power this machine called America. We should not be 
looking for ways to regulate the industry out of business.

    Senator Boxer. We are pleased to see you. I am sorry I 
missed you.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    I appreciate your scheduling the hearing today. Welcome to 
the Commissioners.
    The Nuclear Regulatory Commission is vital to ensuring 
nuclear safety. It is important for this committee to make sure 
their mission is carried out effectively. Although there are 
some who may question policy decisions made by the Commission, 
I believe we have come a long way from where the Commission was 
just a few years ago.
    The Commissioners recently made the decision to recognize 
that nuclear power plants need flexibility in when they can 
move spent fuel from wet pools to dry cask storage. I believe 
storing nuclear waste in wet pools is safe.
    As we all know, however, storing fuel in wet pools is not a 
long term solution for storing nuclear waste. Eventually, this 
fuel must be put into the dry cask so that it can be shipped to 
Yucca Mountain or whatever facility is chosen to store the 
nuclear waste.
    The Commission is currently working on the safety 
assessment for Yucca Mountain. Unfortunately, the Commission 
has not requested supplemental funds for Yucca Mountain related 
activities. There is a concern from those of us on the 
committee who believe that Yucca Mountain is a viable option 
for the long term storage of nuclear waste.
    I am also concerned, Madam Chairman, that the progress the 
NRC has made could be undone if we do not have qualified 
individuals in all Commissioner slots on the Commission. For 
example, Commissioner Apostolakis' term ends this month, yet 
the Administration has failed to re-nominate him for this 
position. I don't understand the rationale. The Commissioner is 
a vital member of the Commission with years of experience.
    I would suggest that the President re-nominate him as soon 
as possible so that we can maintain a full commission that 
continues to protect our community by ensuring nuclear safety. 
This is best achieved by having experienced commissioners who 
work well together.
    If the President had a different nominee in mind, the 
committee must be given the time to vet and consider that 
nominee before the end of a commissioner's term. The delay in 
making a decision on this matter shows a lack of respect for 
the role this committee plays in vetting nominees for the 
Commission.
    The Nuclear Regulatory Commission is an important aspect to 
oversee nuclear power and must be comprised of competent 
individuals. The Commission can ensure that nuclear energy 
continues to be an important part of America's energy mix. It 
is safe. Baseload power runs 24 hours a day, 7 days a week. 
Nuclear energy also can make America energy independent.
    In my home State of Wyoming, uranium is in abundance. If we 
continue to develop this resource, we can have a steady supply 
of domestic fuel stock to power American homes and businesses 
for many years to come.
    If we are to have a true, all out, all of the above energy 
strategy, we must continue to build new nuclear power plants. 
This is essential to the future of nuclear power in America. We 
cannot hamper nuclear power by over regulating the plants that 
we have. We must strike a balance to ensure the safety of our 
communities while continuing to ensure the viability of nuclear 
power.
    I thank you, Madam Chairman, and look forward to the 
testimony.
    Senator Boxer. Senator, thank you.
    I don't see any other Senators, so we will turn to the 
Chairman. She has 5 minutes and the other Commissioners also. 
Then we will ask our questions. Please proceed.

     STATEMENT OF ALLISON M. MACFARLANE, CHAIRMAN, NUCLEAR 
                     REGULATORY COMMISSION

    Chairman Macfarlane. Good morning, Chairman Boxer, Ranking 
Member Vitter and distinguished members of the committee.
    My colleagues and I appreciate the opportunity to appear 
before you this morning on behalf of the U.S. Nuclear 
Regulatory Commission.
    Today, I would like to discuss the NRC's accomplishments 
and challenges and the efforts the agency is making to assure 
we are performing as effectively and efficiently as possible.
    The NRC continues to make significant progress in 
addressing lessons learned from the Fukushima accident. The 
majority of the Tier 1 activities are on track to be completed 
before the end of 2016 and we are addressing the Tiers 2 and 3 
issues as well.
    We are seeing reactors with upcoming outages making 
modifications to safety systems to provide additional supplies 
of electrical power and multiple ways to inject cooling water 
into the reactors and spent fuel pools. They are also 
installing additional portable equipment.
    Two weeks ago, I had the opportunity to visit the Palo 
Verde Nuclear Generating Station in Arizona and one of the 
industry's two regional response centers. These centers contain 
additional portable safety radiation protection and other 
emergency response equipment that can be delivered to an 
affected plant within 24 hours.
    These visits gave me the opportunity to see firsthand how 
the industry is complying with the NRC requirements to enhance 
the plant's ability to withstand a beyond design basis 
accident.
    While maintaining our focus on the operating fleet, the NRC 
is also overseeing new construction at the Watts Bar Unit 2 
plant, the Vogtle plant and BC Summer to ensure that plants are 
being constructed in accordance with their approved design and 
issues our inspectors identify are corrected.
    With four reactors recently ceasing operation and Vermont 
Yankee permanently shutting down by the end of 2014, as a 
number of you mentioned, the NRC has sharpened its focus on the 
transition from operating to decommissioning plants.
    It is important to emphasize that when a reactor ceases 
operations, the NRC's work to ensure safety and security 
continues. After full fuel is removed from the reactor core, 
the NRC continues to ensure operational safety controls, 
security and emergency preparedness remain appropriate to 
protect the public.
    The NRC must review the licensee's planned decommissioning 
activities, schedules and cost estimates and hold public 
meetings near the plant before major decommissioning activities 
can begin.
    The NRC oversees facility transition to ensure 
decommissioning is carried out safely. We encourage licensees 
to inform and engage members of the public and State and local 
officials throughout the decommissioning process.
    The NRC believes the safety and security requirements we 
mandate will be most effective if they are prioritized 
appropriately so licensees can maintain focus on safe 
operations. We are carefully working to understand and manage 
the cumulative effects of our regulations, including timelines 
for new or revised requirements based on the priorities 
associated with each action and the availability of NRC and 
industry resources.
    We have enhanced public participation in our rulemakings 
and have engaged the industry to perform case studies to 
develop more accurate regulatory cost and schedule estimates.
    The Commission has directed the staff to continue its work 
to understand cumulative impacts and to assess the 
effectiveness of the NRC's process enhancements. The NRC faces 
a different future from what we anticipated just a few years 
ago when a significant increase in new reactor licensing and 
construction was projected.
    We recognize the need to approach this future in an agile 
and efficient manner. We are working now to project the 
agency's expected workload and critical skill needs through 
2020. While there are fewer operating plants and new large 
light water reactor license applications, the NRC's workload 
has increased in other areas.
    In addition to the work areas I have just discussed, we are 
continuing to address the court's decisions on waste confidence 
in Yucca Mountain and preparing for small, modular reactor 
design reviews, among other things.
    As we meet these challenges, I am confident in the NRC's 
ability to continue to develop and execute the strategies 
needed to achieve our safety and security mission.
    Thank you for the opportunity to appear before you today. I 
am pleased to answer any of your questions.
    [The prepared statement of Chairman Macfarlane follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    Senator Boxer. Thank you.
    The Honorable Kristine L. Svinicki.

   STATEMENT OF KRISTINE L. SVINICKI, COMMISSIONER, NUCLEAR 
                     REGULATORY COMMISSION

    Ms. Svinicki. Thank you, Chairman Boxer, Ranking Member 
Vitter and members of the committee for the opportunity to 
appear before you today at this oversight hearing on NRC's 
implementation of actions to enhance and maintain nuclear 
safety.
    The Commission's Chairman, Dr. Allison Macfarlane, in her 
statement on behalf of the Commission, has provided a 
comprehensive description of key agency accomplishments and 
challenges in carrying out NRC's important mission.
    The NRC continues to implement safety significant lessons 
learned from the Fukushima accident in accordance with 
established agency processes and procedures while also 
maintaining our focus on ensuring the safe operation of nuclear 
facilities and the safe use of nuclear materials across the 
Country.
    The next period of implementation of Fukushima-related Tier 
1 regulatory actions lasting several years will require 
discipline and focus from the NRC staff experts as they review 
and oversee a large body of complex, interrelated work.
    I am confident that the NRC's dedicated professional staff 
members are up to the task of meeting these challenges. I thank 
them once again for their sustained commitment to the agency 
and to its work.
    I appreciate the opportunity to appear today and look 
forward to your questions.
    Thank you.
    [The responses by Kristine Svinicki to additional questions 
follows.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. Thank you.
    The Honorable George Apostolakis.

    STATEMENT OF GEORGE APOSTOLAKIS, COMMISSIONER, NUCLEAR 
                     REGULATORY COMMISSION

    Mr. Apostolakis. Good morning, Chairman Boxer and members 
of the committee.
    The Chairman has outlined many of our recent 
accomplishments, current challenges and future plans. I concur 
with the Chairman's statement that we understand the need to be 
proactive about our future, address challenges as they arise 
and maintain a focus on our mission.
    I would emphasize that there are a number of important 
technical and policy currently facing the agency. These 
include: the assessment of seismic and flooding hazard re-
evaluations and review of the associated risks and integrated 
assessments; the proposed station black out mitigation 
strategies rulemaking, the renewal of operating licenses for 
currently operating reactors beyond 60 years, referred to as 
subsequent license renewal; waste confidence; and the risk 
management regulatory framework which proposes a long term 
vision for a more risk informed and performance based 
regulatory framework.
    I cannot recall a more significant group of actions by the 
agency in such a short period of time. The Commission's 
oversight and direction regarding these issues will shape the 
regulatory framework for a long time to come.
    Thank you very much.
    Senator Boxer. Thank you.
    Next is Hon. William D. Magwood, IV.

  STATEMENT OF WILLIAM D. MAGWOOD, IV, COMMISSIONER, NUCLEAR 
                     REGULATORY COMMISSION

    Mr. Magwood. Thank you, Madam Chairman. Good morning to you 
and former Chairman Inhofe.
    It is a pleasure to meet with you today to talk about the 
progress we have made toward learning the lessons of Fukushima. 
The Chairman's statement has already highlighted much of our 
progress. I will add a few additional comments.
    First, I note in the 3-years since the Fukushima accident 
in Japan took place, I have seen nothing that would make 
question the safety of U.S. nuclear power plants. Since March 
2011, we have analyzed a vast array of technical issues, 
debated numerous complex regulatory policies and engaged in an 
open, public discussion about the lessons learned from the 
accident.
    After all that, the essential conclusion reached by the 
Near-Term Task Force in the months after the accident remains 
valid. U.S. nuclear power plants are safe.
    At the same time, I think it is important to emphasis the 
reason our plants are safe is that we in the United States, 
both regulators and the licensee community, place very high 
value in responding to operating experience.
    U.S. plants are safe because we have learned from six 
decades of light water reactor operations and because we 
learned from Three Mile Island and 9/11. We can do no less in 
the case of the Fukushima experience.
    The NRC has taken clear and specific actions based on 
lessons learned. I believe the changes we have made thus far 
are appropriate and balanced. I believe the steps we and the 
licensees have taken thus far have made U.S. plants more 
resilient than they were before Fukushima.
    For example, 2 weeks ago, I visited California's Diablo 
Canyon Plant which has obtained advanced new equipment and is 
building a new, robust facility to house it. Many other plants 
are doing the same thing.
    There is still much work to be completed but I am confident 
that what we have done so far has been both necessary for 
public protection and balanced according to the threat.
    Thank you and I look forward to your questions.
    [The responses by William Magwood to additional questions 
follows.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. Thank you so much.
    Last but certainly not least, Hon. William Ostendorff. 
Welcome.

   STATEMENT OF WILLIAM C. OSTENDORFF, COMMISSIONER, NUCLEAR 
                     REGULATORY COMMISSION

    Mr. Ostendorff. Thank you, Chairman Boxer and Senator 
Inhofe, for the chance to be here today.
    Regarding Fukushima, great strides have been made in those 
activities we determined should be initiated without 
unnecessary delay, the most safety significant items in Tier 1. 
Such activity has led licensees to reevaluate seismic hazards 
using present day methodologies.
    I note that licensees submitted these evaluations in March 
of this year to the NRC. Our staff has completed its initial 
evaluation of these submissions and confirmed that plants 
continue to operate while the NRC and industry conduct further 
more detailed evaluations at certain plants.
    As noted by Chairman Macfarlane, the industry has just 
opened a regional response center in Phoenix which has 
equipment for generators to be provided to the nuclear power 
plant within 24 hours to supplement onsite equipment as 
necessary.
    As a Commissioner, I have great confidence in the NRC's 
decision making on Fukushima actions. Throughout, the 
Commission and our staff have relied upon solid principles of 
science, engineering and risk management.
    I appreciate the committee's oversight role and look 
forward to your questions.
    [The responses by William Ostendorff to additional 
questions follows.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. I want to thank you all for your testimony.
    Chairman Macfarlane, the NRC is still withholding two 
categories of documents from this committed related to the San 
Onofre investigation. You have repeatedly told me that the 
reason the NRC is withholding these documents is because of 
``constitutional separation of powers concerns.''
    After working feverishly with your legal staff and my legal 
team, I couldn't get the information. I asked a reknowned 
constitutional scholar, Morton Rosenberg, who worked for CRS in 
the American Law Division for 35 years, and whom you have cited 
often in your correspondence with us.
    This is what he says. He says, your letters to me 
demonstrate ``a profound misunderstanding of Congress' 
investigatory powers and that they misState court decisions, 
they ignore overwhelmingly contrary case law that supports the 
committee's right to receive the materials and show a lack of 
awareness of over 90 years of congressional investigations in 
which agencies have had to give Congress what it asks for.''
    I am going to ask unanimous consent that his paper is 
placed in the record at this time.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Senator Boxer. Chairman Macfarlane, you are clearly relying 
on misguided and deeply flawed legal advice. It is time for you 
to decide for yourself will the NRC follow the law and give the 
committee what it has asked for or not.
    Chairman Macfarlane. Chairman Boxer, I would like to be 
clear that the Commission has not come to its position lightly. 
We have spent much time and effort studying the situation, 
seeking views on the situation so that we feel we have been 
able to provide you with as much information as we believe we 
can.
    There are two categories of documents that we feel we need 
to protect but we trust that the many, many documents that we 
have already provided to you for your investigations have been 
helpful.
    Senator Boxer. Let me just say, obviously the answer to my 
question is you are going to stick with the legal advice you 
have been given which I am told by a scholar is totally wrong. 
I didn't say you came to the decision lightly; I said you came 
to it wrongly. If you still take that position, this committee 
is going to do its work; we are going to get these documents.
    When you read this analysis, we will send it to your team, 
we hope that you will change your mind because it is very, very 
serious, what is being withheld. We need to see it. By the way, 
we will get it one way or the other but we need to have it.
    Many of you have said you are very pleased with the 
progress you are making post-Fukushima. Can we put up those 12 
recommendations? You used words that exclaim all the progress 
from the Chairman on down. I would like to ask you, as far as 
you know, have any of these 12 been implemented?
    Chairman Macfarlane. Some of them have been.
    Senator Boxer. Which ones have been implemented?
    Chairman Macfarlane. What we did at the Commission after 
the Near Term Task Force presented us with those 12 
recommendations was prioritize those recommendations into three 
categories.
    Senator Boxer. No, no. I am asking you, these 12 
recommendations that were made by your top staff, and all of 
you lauded them, I want to know, I have the answer, I just want 
to get you to confirm it. I have the answer, not one of these 
has been implemented by industry on the ground. Do you disagree 
with that?
    Chairman Macfarlane. Chairman, those are recommendations. 
Based on those recommendations, we issued a number of orders, a 
number of requests for information and we have entered into a 
number of rulemakings.
    Senator Boxer. I am asking you a question. Has industry 
implemented any of these 12? They haven't. You can sit there 
and say you are proud and everything else. The fact is not one 
of these has been implemented on the ground. It is 3 years and 
counting.
    Senator Vitter. Madam Chairman, I would like to hear from 
the commissioner.
    Senator Boxer. I am running out of time so you can ask on 
your time.
    This last question is very important because it deals with 
a decision you made which is to keep the spent fuels where they 
are and not move them to dry casks. In that decision, you 
assumed emergency planning at these plants would be in place.
    I am asking each of you a very important question. You saw 
the photo, would you show the photo one more time, of how close 
that fire came to San Onofre where 8 million of our people live 
within 50 miles. When I saw that, my heart stopped and I assume 
your hearts stopped too.
    That plant is shut down and if these fuel rods are hot, you 
have decided not to move them. I am asking each of you if you 
are asked to waive the requirement that this plant have an 
evacuation plan in place, if you are asked to waive that, will 
you deny that request? You are making a face like you didn't 
understand, so I will say it again.
    You have been asked, as I understand, by the operator to 
waive the requirement that there be emergency evacuation 
planning at that site. They don't want to do it anymore. They 
don't want to have the sirens. They don't want to have the plan 
and a fire came within a half a mile of 8 million people. Will 
you deny that request? I am asking yes or no.
    Chairman Macfarlane. Exemptions are not waivers. The plant 
may have applied for an exemption. That is not a waiver.
    Senator Boxer. Will you deny the exemption?
    Chairman Macfarlane. Emergency preparedness at 
decommissioning plants may, in some cases, be reduced in scope 
but it will not be eliminated. I want to be clear on that. 
Exemptions for decommissioning plants are done on a site 
specific basis. They are carefully considered.
    Senator Boxer. I am asking you, will you deny the exemption 
from safety for this plant when it is presented to you, yes or 
no or you don't know?
    Chairman Macfarlane. We will ensure that the plant will be 
safe.
    Senator Boxer. That is not the answer to my question. Say 
yes or no or I don't know or I can't answer it. Will you deny a 
request for an exemption from emergency plans.
    Chairman Macfarlane. We will ensure that the plant will be 
safe.
    Senator Vitter. Madam Chair, will you let our witnesses 
answer your question? The way it normally works is you get to 
ask the question but they do get to answer.
    Senator Boxer. Will you answer yes or no or I don't know? I 
don't need a lengthy explanation because my question is quite 
simple. Will you vote to deny an exemption from safety rules 
from the operator at San Onofre, yes, no, or I don't know yet?
    Chairman Macfarlane. As I said, exemptions are done on a 
site specific basis and they are based on established----
    Senator Boxer. The more you talk, the more you ignore my 
question. I have given you three choices that are fair, yes, 
no, I don't know.
    Senator Vitter. Madam Chair, we don't normally have 
hearings requiring the witnesses to fill in----
    Senator Boxer. When you have this gavel, you make the 
rules. Yes, no or I don't know, would you please answer?
    Chairman Macfarlane. At this point in time, I have not been 
presented with enough information to make a decision.
    Senator Boxer. Then you don't know.
    Ms. Svinicki.
    Ms. Svinicki. Respectfully, Chairman, I won't prejudge the 
action, so I don't know.
    Mr. Apostolakis. I don't know either.
    Senator Boxer. Yes?
    Mr. Magwood. I haven't seen the exemption request yet.
    Mr. Ostendorff. I agree with my colleagues.
    Senator Boxer. Let me just say, for the record, never has 
the NRC ever denied a request for an exemption from safety. I 
have to tell you this is in my mind, it is in my heart and the 
people in my State expect you to protect them.
    The fact that you cannot commit today to uphold the safety 
planning for this plant given that the number of fuel rods in 
there are far greater than planned for the plant, which you 
allowed, not you but the Commission allowed. It is outrageous 
and you wonder why people are losing confidence.
    Senator.
    Senator Vitter. I want to go directly to the so-called 
exemption issue too because I think it is a lot of semantics 
being used, quite frankly, to confuse and scare the public.
    Commissioner Svinicki, is it correct that we are talking 
about some changes that are made with your permission if an 
exemption is granted when a site goes from being an operating 
nuclear facility to a facility that is shut down? We are 
talking about changes made presumably to reflect the fact that 
those are two very different animals. Is that what we are 
talking about generally?
    Ms. Svinicki. Yes, Senator Vitter. As Chairman Macfarlane 
noted, in our regulations in some instances there is not a 
provision for whether the reactor is operating or in the 
process of decommissioning, so the NRC historically had a heavy 
reliance on the use of exemptions to reflect the changes in the 
facility as it is decommissioned and the changes in risk.
    Senator Vitter. Thank you.
    I am not suggesting, and I know you aren't either, that a 
plant that has been shut down, you can just walk away from that 
site and not worry about it. I am not suggesting that, but it 
does seem reasonable that there is a significant difference 
between a nuclear plant that is operating and a nuclear plant 
that is shut down.
    I think a lot of this debate is being revved up over these 
semantics but presumably these exemptions are about reflecting 
that change, is that fair to say?
    Ms. Svinicki. Yes, Senator.
    Senator Vitter. As reactors are shut down, are there a 
number of requirements that were necessary for reactor 
operations when a reactor was up and running that are no longer 
applicable when a reactor is shut down?
    Ms. Svinicki. Yes, Senator, but I would note that any 
request for exemption is extremely case specific. They are 
accompanied by a safety evaluation done by the proposer, the 
licensee, and that is, as Chairman Macfarlane indicated, very 
thoroughly reviewed by NRC. That is the process but it is 
specific to each exemption request.
    Senator Vitter. In these cases of decommissioning, has 
there ever been an exemption granted from all safety 
requirements simply because a plant has moved from operational 
to being shut down?
    Ms. Svinicki. I am not aware of any approval that was that 
sweeping. Again, as I have indicated, they are very specific to 
the request itself, the scope is specific.
    Senator Vitter. Commissioner Ostendorff, I wanted to ask 
you about the expedited transfer vote. The staff submitted 
their recommendations in this area on November 12, 2013. The 
Commission didn't take action on it until May 23, 2014.
    I am concerned that taking so long to move on in that area 
really clutters your table and doesn't allow you to properly 
focus on the Tier 1 recommendations, the high priority 
recommendations.
    Do you think the length of time the Commission took to 
approve such a steep, clear staff recommendation was 
appropriate?
    Mr. Ostendorff. I supported the staff's recommendation with 
my vote and I also supported the views of the Advisory 
Committee on reactor safeguards. I am a member of a five member 
commission. We all take different periods of time to review and 
do our due diligence. I respect my colleagues and the time 
period they took to resolve these. I think it was perhaps a bit 
longer than it needed to be.
    I understand your concern. That is part of the dynamic of 
being a part of an independent regulatory commission.
    Senator Vitter. Thank you.
    Chairman Macfarlane, a final question on Yucca Mountain. I 
am very concerned that various folks are dragging their feet, 
obstructing on Yucca Mountain basically in an effort to shut 
down nuclear period. I think that would really be unfortunate.
    I have asked you in previous hearings and I want to ask 
again, in your order directing the staff to complete the SER, 
you noted that the Commission doesn't have adequate resources 
to fully complete the Yucca review and issue a decision as the 
court told you to do.
    In light of that, have you proposed a supplemental budget 
request to OMB?
    Chairman Macfarlane. We have not.
    Senator Vitter. The obvious question is, why not? The 
courts said get on with this, it is a requirement under the 
law. You have said, we don't have the resources, so why aren't 
you taking the steps to at least request what you need to do, 
what is mandated under law and by the courts?
    Chairman Macfarlane. Senator, the courts required us to 
begin the licensing process again using the funds that we had 
and we have done so. We are complying with the law. Any further 
decision to ask for additional money will be a Commission 
decision.
    Senator Vitter. I would urge the Commission to face that 
because you have already said we don't have the resources to do 
this. That already seems crystal clear to you, so I think it is 
simply going to increase the foot dragging and the delay never 
to even make a request to the Administration to get you what 
you need.
    Chairman Macfarlane. In my view, when the applicant, in 
this case the Department of Energy, shows that it has the 
resources and is seeking to complete the work, that is the 
point in time when we should move forward to seek additional 
funds.
    Senator Vitter. Thank you.
    Senator Boxer. Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    On that, you might remember the last hearing we had, I 
posed a question that the workload, from the way I see it, has 
decreased substantially because of all these things that are 
happening. This is not one of the questions I was going to ask 
but as an observation, it would seem to me that the lack of 
resources and personnel should not be a real strong point as it 
could have been in the past. That is just an opinion.
    Commissioner Ostendorff, despite the NRC staff and the 
majority of the commissioners concluding that the spent fuel 
pools would be safe even in the event of a massive earthquake, 
why would the NRC now expend additional agency, industry and 
industrial resources on additional site specific studies? Do 
you have any short answer to that?
    Mr. Ostendorff. Senator, I think your question is dealing 
with spent fuel transfer or does it deal with seismic studies? 
I want to make sure I understand.
    Senator Inhofe. Yes, on the studies.
    Mr. Ostendorff. The Commission decision has been to not 
require further work to require any look at expedited transfer. 
We have closed that issue.
    Senator Inhofe. In 2012, the District Court remanded NRC's 
waste confidence rule. When will the revised rule become final?
    Mr. Ostendorff. There is a draft rule that is supposed to 
come to the Commission this summer. We expect completion of 
that waste confidence rulemaking in the fall of this year.
    Senator Inhofe. Given that spent fuel pool integrity was an 
issue raised by the D.C. Circuit in their remand of your waste 
confidence rule, how do you plan to satisfy the court if the 
seismic safety or the spent fuel pool remains an open question 
under the review?
    Mr. Ostendorff. Senator, I understand the question. I would 
just comment that since this involves an adjudication by the 
D.C. Circuit, there are certain things we can't address but I 
would just tell you that I personally believe the Commission 
decision on expedited transfer of spent fuel from the pools has 
been very clear and that we have confidence in the existing 
spent fuel integrity.
    Senator Inhofe. That is fine.
    Chairman Macfarlane, I am a little concerned about your 
vote on the expedited transfer of spent fuel. The other four 
commissioners as well as the staff agreed with their assessment 
that the risk of the public is so low that a $3 billion cost of 
expediting transfer would not be warranted.
    However, you didn't agree and cited a paper you wrote in 
2003 with Ed Lehman and Bob Alvarez that held a position 
contrary to the NRC staff. Do you agree now that the spent fuel 
pools at Fukushima survived a massive earthquake, a 45 foot 
tsunami and hydrogen explosives, is that correct?
    Chairman Macfarlane. Apparently they have. I think we are 
still collecting information but apparently.
    Senator Vitter. It is also my understanding that staff has 
studied the safety of the pools ten times now and has 
consistently concluded that the fuel pools are safe. Can you 
tell me how much money and how many full time employees have 
been working on this issue?
    Chairman Macfarlane. At this moment, I can't.
    Senator Vitter. If you can provide that for the record, it 
would be very interesting to me to see what kind of resources 
are used because I know it is quite a bit.
    Should your vote against the NRC cause me to question your 
open mindedness about things like Yucca Mountain? I know you 
had positions in the past, statements were made in the past and 
we had the paper we just referred to. Are you open minded?
    Chairman Macfarlane. Absolutely. In fact, my vote, if you 
would have a close look at it, is based entirely on the two 
reports provided by the staff.
    Senator Vitter. You weren't able to completely answer the 
question the Chairman was asking when she asked for a specific 
answer. Is there anything you would like to add to elaborate on 
that question?
    Chairman Macfarlane. The question of exemptions?
    Senator Vitter. Yes.
    Chairman Macfarlane. For decommissioning reactors, thanks 
for the opportunity.
    I would just say that when we do consider exemptions, they 
are certainly done on a site specific basis; we don't grant the 
same kind of exemption for every plant. They follow an 
established process that is based on a detailed technical 
analysis.
    There is no exemption from safety. The plants themselves 
have to show that safety is maintained. We take our safety 
mission very, very seriously at the NRC. The staff takes that 
mission very seriously as well.
    Senator Vitter. I know the staff has and the Commission has 
for the past several years. I mentioned my first experience was 
back in 1997. I know it is a very thoughtful commission and we 
are very pleased we have this commission.
    Let me reinforce the remarks made by others that we want to 
make sure that we encourage the Administration to keep it at 
full staff so we can continue. When I mentioned the odds, 1 in 
4 million years, just think about that a bit when you are 
making these considerations.
    Thank you, Madam Chairman.
    Senator Boxer. Senator, thank you for bringing up the 
evacuation issue because that is what I will now talk about 
again.
    It is my understanding that the Commission has never in its 
history turned down a request for an exemption from having to 
have evacuation plans. Do any of you think I am wrong on that? 
If so, which one did you turn down?
    Chairman Macfarlane. I'll have to take that for the record, 
Chairman.
    Senator Boxer. Just know that we have exhausted the record 
and there isn't any but you go ahead and let us know if I am 
wrong.
    Let's be clear about this, folks. This commission has a 
very easy record to access on that question and there has never 
been a time when an operator was told they had to keep an 
evacuation plan in place.
    Let me tell you again, your job is to ensure safety. Let me 
say this. To the Chairman, is this not your quote? When asked 
whether or not a shut down plant could be dangerous, this is 
what you said, ``The fire could well spread to older spent 
fuel. The long term land contamination consequences of such an 
event could be significantly worse than those from Chernobyl.'' 
Do you remember saying or writing that?
    Chairman Macfarlane. That's from the 2003 paper?
    Senator Boxer. Yes.
    Chairman Macfarlane. It was a collaborative effort, that 
paper.
    Senator Boxer. Did you sign that statement?
    Chairman Macfarlane. I am one of the authors, that is 
correct.
    Senator Boxer. Thank you.
    Is it not true that the NRC said in 2001, spent fuel fires 
could have health effects comparable to those of a severe 
reactor accident? Does anyone think that is a misstatement by 
myself? OK.
    Let's be clear anyone who says it is not serious because 
you are shut down, if there is a fire, doesn't know what they 
are talking about, let's just be clear.
    Senator Vitter interrupted me several times, doesn't know 
that my operator for San Onofre submitted these many pages of 
exemption requests. Let me tell you what they are asking for.
    The proposed exemption would allow the operator to 
discontinue offsite emergency planning activities--Senator 
Markey, would you join me up here. I know you were presiding 
and we appreciate you being here.
    Let me say again, this is what they are asking for. The 
operator is asking to discontinue offsite emergency planning 
activities and reduce the scope of onsite emergency planning. 
Examples of requirements subject to proposed exemption that are 
related to discontinuing offsite emergency planning activities 
include, but are not limited to, requirements for offsite 
agency emergency plans, emergency planning zones and ingestion 
pathway zones, the emergency operations facility, evacuation 
time estimates, offsite notification timeliness, offsite dose 
projections, protected action recommendations, and examples of 
requirements, subject to the proposed exemption, that are 
related to reducing the scope of onsite emergency planning 
activities.
    They are basically asking to be let off the hook and if you 
grant this exemption, and you have never turned down one 
before, and you won't answer my question, none of you will, I 
am going to show again the picture--I want Senator Markey to 
see this--of how close the fire in California came to that 
decommissioned plant.
    Do any of you know how many hot spent fuel rods are in that 
plant?
    Chairman Macfarlane. I do not have an exact number. I can 
take that for the record.
    Senator Boxer. Does anyone else know how many? Just for the 
record, 2,600. Do you know what it was designed for?
    Chairman Macfarlane. The original design or after the 
reracking had been done? If it was the original design and the 
open frame racks, probably about a quarter of that amount.
    Senator Boxer. Thirteen hundred. This doesn't go into other 
decommissioned plants.
    Anyone who says that a shut down plant is not as dangerous 
has to just read what the Chairman said. Read what the NRC 
said, the consequences of an event could be significantly worse 
than those in Chernobyl.
    I represent those people just like Senator Vitter 
represents his people and he worries night and day about their 
safety from hurricanes and the rest, I worry about my people. I 
am not going to stop because I can't get any one of you to 
commit to me that you will turn down this request for 
everything that they want to waive. You have never turned it 
down before and you won't answer the question. Yes, would you 
like to answer?
    Mr. Ostendorff. Just for clarification, this commission has 
not received any document or request for Commission decision 
making on this topic.
    Senator Boxer. You don't know your work. This was sent to 
you on March 31, so what happened to your record keeping? Your 
people didn't give you this information? Madam Chairman, why 
doesn't the Commissioner know about this?
    Chairman Macfarlane. It has been sent to the staff; it has 
not been brought up to the commission.
    Senator Boxer. How long does the staff sit on it before 
they let you know about it?
    Chairman Macfarlane. As I said before, we have an 
established process and the staff does detailed technical 
analysis. We do not take these decisions lightly; we take them 
very seriously.
    Senator Boxer. When are you going to have the staff report?
    Chairman Macfarlane. I do not know but I can get that for 
you.
    Senator Boxer. You do not know. Let me tell you, you'd 
better know because I have 8 million people living within 50 
miles of that site. I had a fire that came within half a mile 
of that site and the operator had to evacuate the people 
inside. Now they don't want to have an evacuation plan. This is 
a no-brainer.
    I am sorry. You can sit there and say we take it seriously. 
Really? Let me just tell you that this facility sits on an 
earthquake zone and a tsunami zone. You know it happens. You 
yourself wrote in collaboration with others that an accident 
here could be worse than Chernobyl.
    All I am saying is March 31, I got this. I think it would 
be nice if the commissioners got this. As a matter of fact, I 
am going to make sure that before the staff goes through it, 
the commissioners get this. Yes, sir?
    Mr. Ostendorff. I think we have all been aware that our 
staff has received the document you are referring to but as the 
Chairman noted, it is in a staff process. I will tell you I had 
a discussion for the last week with Mike Johnson, who I think 
is here, who briefed me on the status of this and he's working 
in his discussions with FEMA on these issues.
    I want to assure you that this is working through our 
process and we owe you a response as to when a decision can be 
expected.
    Senator Boxer. I will await that response but I want to say 
again, to me, there is an urgency and to you, there should be. 
This isn't just any power plant. This is a nuclear power plant 
that has many of these spent fuel rods in an earthquake zone, a 
tsunami zone and a fire came within a half a mile.
    I hope the staff will work overtime just like my staff does 
when there is an emergency because that is what I consider it.
    Chairman Macfarlane. Chairman, I just want to be clear that 
emergency preparedness will not be eliminated at the site. I 
want to be clear about that. We will not eliminate emergency 
preparedness.
    Senator Boxer. So you are agreeing that you will not allow 
them this exemption they are asking for all of this?
    Chairman Macfarlane. We will not eliminate emergency 
preparedness. Sometimes it is reduced in scope after we 
consider the request.
    Senator Boxer. Let me ask you then, you will not waive the 
requirement for offsite evacuation plans?
    Chairman Macfarlane. I do not know the details of this.
    Senator Boxer. You will not waive their request to be 
exempted from having warning sirens?
    Chairman Macfarlane. I do not know the details of this 
request. They have to prove to us that they can maintain the 
safe level of operation under decommissioning.
    Senator Boxer. You don't know right now if you will 
eliminate offsite evacuation plans, warning sirens, what about 
relocation centers?
    Chairman Macfarlane. We will ensure that the site will be 
safe. We will ensure there are adequate measures in place to 
respond to any kind of radiological emergency. That is our 
mission.
    Senator Boxer. Fair enough. Let me ask you this. Do you 
think offsite evacuation plans are a necessary part of that 
facility being safe? Do you personally believe? You can't 
answer for anyone else. Do you believe that having offsite 
evacuation plans are a necessary part of having that facility 
safe?
    Chairman Macfarlane. An operating facility, of course, 
always requires evacuation plans.
    Senator Boxer. You will not waive that requirement?
    Chairman Macfarlane. I will have to consider it, consider 
the site specific requirements.
    Senator Boxer. You have never said no to exemptions of all 
offsite emergency plans. That is why I am drilling down on this 
because the NRC, who cares a lot about safety, that is your 
job, has never ever turned down such plans.
    Let me just tell you this. I am deeply troubled that 
commissioners haven't seen this. Maybe they knew about the 
fire. If I were one of you, I certainly would have said what's 
happening. This could have been--I don't even want to say the 
type of disaster. All I have to do is quote the Chairman in her 
2003 paper in which she said, ``The fire could well spread to 
older spent fuel. The long term land contamination consequences 
of such an event could be significantly worse than those from 
Chernobyl.''
    Senator Vitter.
    Senator Vitter. I have a couple of things on this topic for 
the record.
    First of all, I want to reState what I said. The Chairman 
was sort of suggesting that I was saying that a decommissioned 
site, a run of the mill industrial site doesn't need concern, 
doesn't need a lot of careful regulation.
    As I explicitly said, I think nothing could be further from 
the truth. Clearly, an operating nuclear facility is a pretty 
different animal than a decommissioned site. I was simply 
making the point that under your rules, the only way to account 
for that are the so-called exemptions.
    Maybe people would feel better if we had a different rule 
rather than talk about exemptions. That is semantics, not 
substance. That is my first point.
    My second point is I find it ironic and confusing that the 
Chair is now disappointed that your staff is actually reading 
this stack of paper very carefully and taking it very 
seriously. If you all are a rubber stamp, as she has been 
suggesting, for any suggested exemptions, then the staff could 
whip through it in a week, give it to you and you all would 
have voted by now.
    That is not happening I assume because you and your staff 
actually take this seriously, actually read it line by line and 
go through a thorough process. It shouldn't drag on forever. We 
deserve to know what a reasonable timetable is. Commissioner 
Ostendorff has said you will get back to us with that, but I 
don't think we should be complaining about a careful, thorough 
process.
    I just wanted to make those few points.
    Senator Boxer. Senator, thank you.
    What I did say was in light of this near disaster, I am 
very disappointed that the commissioners haven't gotten more 
involved at this point.
    Senator Markey.
    Senator Markey. Thank you, Madam Chair. Thank you for 
calling this very important hearing today.
    Fukushima reminded us of the devastating effects of a 
nuclear reactor meltdown. Radiation from the accident was 
detected over 1,000 miles away. Land contamination continues to 
keep tens of thousands of people from returning to their homes 
and cleanup cost estimates continue to rise. Industry admitted 
it will cost well over $100 billion.
    Meanwhile, in the United States, we have packed so much 
radioactive waste into spent fuel pools that even NRC studies 
conclude that spent fuel fires could spread as much 
contamination as a meltdown of an operating reactor.
    Throughout the United States, many pools, including the one 
at the Pilgrim Nuclear Power Plant, are dangerously 
overcrowded. The solution to this is simple. Take the waste out 
of pools and put it into safer, dry cask storage.
    That is why I recently introduced the Dry Cask Storage Act 
which gives plants 7 years to remove all the waste that can be 
removed from the pool and put it into safer, dry cask storage, 
provides funding to help offset the cost and increases the size 
of emergency planning zones around plants that choose not to 
remove the waste from their pools.
    Madam Chair, is it true that removing waste from the pool 
and putting it into dry cask storage reduces the amount of 
radioactivity that could potentially be released if a spent 
fuel fire were to occur?
    Chairman Macfarlane. Operating reactors need pools because 
when they discharge their fuel, it is very hot and it needs the 
water circulation to keep it cool, so you need the spent fuel 
pool.
    When the spent fuel has aged at least 5 years, right now in 
the United States, it can be then transferred to a dry cask. 
Those dry casks are safe, they are passive systems. The spent 
fuel pools are active systems and require active circulation of 
water.
    Senator Markey. Didn't the NRC studies show that even at 
decommissioned reactors, it was never possible to rule out the 
possibility of a spent fuel fire?
    Chairman Macfarlane. I think there are a variety of studies 
out there. I can take that for the record because I myself 
would like to see more analysis of the number of these issues.
    Senator Markey. Are any of you familiar with any NRC 
studies that show that there could, in fact, be a fire? Are any 
of you familiar with that at all?
    Mr. Apostolakis. Yes, Senator. There could be a fire. The 
question is, how likely is it. The NRC studies have shown that 
it is extremely unlikely. That is what the studies say.
    Senator Markey. The Commission recently voted to allow 
plants to continue to overfill these pools for as long as they 
wished to do so. Each of you is saying it is highly unlikely 
that there will be a fire and therefore, there is no need to 
move toward dry cask storage, is that correct? Is that what you 
are saying?
    Mr. Apostolakis. There were four main inputs I considered 
in my vote: the detailed staff analysis which argued that way; 
the Advisory Committee of Reactor Safeguards' independent 
experts agreed with the staff; and the historical record that 
showed the spent fuel pools withstood earthquakes beyond design 
basis. There was a statement by Dr. Thompson who raised a lot 
of issues and questions and there was a distinguished member of 
the Advisory Committee that rebutted all the issues he raised.
    All the evidence pointed to the extremely low likelihood of 
a fire there.
    Senator Markey. Let me read to you from the NRC's 
statements. It says, ``An SFP fire could have health effects 
comparable to those of a severe reactor accident, large seismic 
events that fail the SFP are the dominant contributor to 
causing an SFP fire.''
    Where there are earthquake zones, southern California is an 
example but they are all over the Country, how do you deal with 
that in terms of your own agency's conclusion with regard to 
the danger of a fire that could become a catastrophe? Madam 
Chair?
    Chairman Macfarlane. The Commission has voted on this issue 
and the Commission decided that this issue needed no further 
study.
    Senator Markey. I appreciate that but again, we just had 
Fukushima. We know that many of the nuclear power plants in our 
Country are built on or near earthquake faults and we have the 
Commission's actual conclusion.
    I understand the industry does not want to spend the money. 
I understand that the industry doesn't want to have to absorb 
this kind of cost but again, I am dealing here with your own 
agency's conclusion about the danger that exists.
    Mr. Apostolakis. Senator, the seismic re-evaluation project 
will also look at the spent fuel pools again.
    Senator Markey. What is the timeline for that?
    Mr. Apostolakis. It is in progress.
    Chairman Macfarlane. For the top priority group of plants, 
their seismic probabilistic risk assessments will be completed 
by 2017.
    Senator Markey. The whole concept of probabilistic risk 
assessment is one that is very long and obviously goes back to 
the late 1970's and early 1980's with assessments made even 
then with regard to the probability of an accident and the need 
to build in proper protection.
    PRA is the longstanding standard. It just seems to me 
almost irresponsible that we are going to wait until 2017 to 
complete that kind of a study knowing the danger that exists, 
the longer that decommissioned plants sit there with these 
spent fuel rods in place.
    Have you implemented any permanent seismic safety measures? 
Are you planning to do that before 2017?
    Chairman Macfarlane. Yes. There has been a seismic hazard 
re-analysis that we ordered as a result of lessons learned from 
Fukushima. Actually, it was already in progress before the 
Fukushima accident but we moved it up. We are trying to be 
proactive.
    Senator Markey. You have done the analysis. Have you put 
anything in place in order to ensure there are safeguards 
there?
    Chairman Macfarlane. Yes, certainly. The plants are built 
with a significant amount of margin. The analysis has analyzed 
the hazard. We are now trying to understand, with the 
probabilistic risk assessments, is the capacity of the plants 
to withstand that re-analyzed hazard.
    Senator Markey. You haven't put any new standards in place 
on a permanent basis since Fukushima, none? For me, that is 
still unforgivable. We know what can happen. We know what the 
consequences are.
    We saw what happened in Three Mile Island, the potential 
consequences of a reactor meltdown years before Chernobyl and 
Fukushima. Now, experts have given us clear warnings that a 
spent fuel pool fire could actually be worse than a reactor 
meltdown.
    With that much at stake, I think the Commission's vote not 
to heed these warnings was simply irresponsible.
    Chairman Macfarlane. Senator, may I clarify a point. In 
2012, we requested the plants to do seismic and flooding hazard 
walk downs. The plant operators had to go through the plants, 
make sure that all the bolts were tightened. I think they 
completed that.
    Senator Markey. That's a study.
    Chairman Macfarlane. It wasn't a study. They actually 
walked through the plants and made sure that everything was as 
it was supposed to be, that they met their licensing basis for 
their seismic hazard.
    In some cases, they found small problems. They have 
corrected them or they are in the process of correcting them.
    Senator Markey. But those are pre-Fukushima standards and 
you have not promulgated any post-Fukushima standards thus far. 
They are still, in many instances, not in compliance with pre-
Fukushima.
    Chairman Macfarlane, the Department of Justice recently 
indicted five members of the Chinese military on charges of 
hacking into U.S. company systems. According to the indictment, 
the Chinese efforts included the theft of nuclear reactor trade 
secrets from Westinghouse. These steps started in May 2010 and 
lasted until at least January 2011.
    At the very same time that those steps occurred, 
Westinghouse was hosting a job shadow program that placed 
dozens of Chinese personnel at U.S. nuclear reactors for months 
during the identical timeframe in which the alleged thefts 
occurred.
    This job shadow program was approved by the Nuclear 
Regulatory Commission. I recently wrote a letter asking you for 
more information on this program. I look forward to your 
response.
    Chairman Macfarlane, did any of the Chinese nationals who 
were stationed at American nuclear reactors have unescorted 
access to the facilities?
    Chairman Macfarlane. This job shadow program was a private 
sector activity. It was not under the control of the NRC. The 
NRC insured that its security regulations were followed during 
this time and I respectfully ask you to refer all other 
questions on this topic to the Justice Department.
    Senator Markey. Let me ask you this. Would NRC rules and 
regulations allow unescorted Chinese nationals to go through 
private nuclear complexes? Do regulations allow that to occur, 
that the Chinese would be unescorted and walking through a 
domestic nuclear complex?
    Chairman Macfarlane. I can tell you that our security 
regulations were followed.
    Senator Markey. I am asking, do those regulations allow for 
Chinese nationals to walk through our nuclear power plants 
unescorted?
    Mr. Apostolakis. No, Senator, they are not allowed to do 
that.
    Senator Markey. They are not allowed.
    Mr. Apostolakis. No.
    Senator Markey. Then how could it have happened then that 
they were walking through our power plants, especially post-9/
11?
    Chairman Macfarlane. Senator, we are in the process of 
responding to your letter. I do request that you direct your 
further questions to the Department of Justice.
    Senator Markey. I appreciate that. I am just trying to get 
at the heart of what you allow and then what happened. I am 
getting a bit of, I think, a mixed message. Mr. Apostolakis, 
you are saying that they would not be permitted under your 
regulations?
    Mr. Apostolakis. That is my understanding, Senator, yes.
    Senator Markey. So how could they possibly gain access, 
unescorted Chinese nationals, into nuclear power plants, 
especially post-9/11, with these additional security 
provisions, many of them things that I am the author of with 
regard to access to our nuclear power plants?
    Mr. Apostolakis. I don't know, Senator.
    Senator Markey. You do not know.
    Chairman Macfarlane. We are in the process of responding to 
your letter. Again, I ask that you refer all further questions 
to the Department of Justice on this topic.
    Senator Markey. I will just say this in conclusion. The NRC 
claims to foster a safety conscious work environment where 
``personnel feel free to raise safety concerns without fear of 
retaliation, intimidation, harassment or discrimination.''
    In the past year, my office has heard from an increasing 
number of whistleblowers from many different offices at NRC. 
These people are all serious, dedicated individuals who are 
calling my staff because they feel they are not being heard by 
their own managers and colleagues. They feel that when they 
step forward to report safety, security or other problems, they 
are systematically retaliated against.
    I have raised this concern many times with you. I am 
holding a report written by the NRC but not yet publicly 
released that actually surveyed those who have attempted to use 
NRC's formal processes for resolving policy disagreements.
    A staggering 75 percent of those who used them said they 
received a poor performance appraisal after they raised their 
whistleblowers concerns. Almost two-thirds of them said they 
were excluded from work activities by their management; 25 
percent were passed over for promotions; 25 percent were even 
verbally abused by their colleagues and their supervisors.
    Those results are shameful. I ask that portions of this 
report be entered into the record and request your formal 
written response on what you plan to do to fix these problems.
    Senator Boxer. Without objection, so ordered.
    [The referenced information follows:]
    Senator Markey. I thank you. I will just say that I began 
chairing a committee overseeing the Nuclear Regulatory 
Commission in 1981. I had a hearing onsite at San Onofre in 
1983. This just continues, this whole pattern just continues at 
the agency and it is one that troubling, especially post-
Fukushima.
    It is very important for this culture to change. I am just 
afraid that it has not.
    Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator.
    Senator Sessions.
    Senator Sessions. Thank you, Madam Chairman.
    I appreciate both of your interest, Senators, and study of 
this over the years. I do have a different view.
    I think the good news is that in our nuclear power 
industry, unlike our coal, natural gas and other industries, we 
have not had a single individual be killed in the entire 
process of that industry, nor have we had a person, to my 
knowledge, made sick as a result of a nuclear accident. I would 
say today we have had a pretty good record.
    Commissioner Ostendorff, Senators Sanders, Boxer and Markey 
introduced a Nuclear Plant Decommissioning Act which grants a 
large role to States and communities in the development and 
decommissioning of nuclear plants.
    Based on your experience, would you share with us any 
thoughts you have as to whether that would make it more or less 
likely that a new nuclear plant would be built in America?
    Mr. Ostendorff. Senator, I believe the predictability and 
stability of a regulatory process is very important. We are an 
independent regulatory agency. We base our decision making on 
solid principles of science, engineering and risk management. 
We think then Nation benefits from that from the public health 
and safety perspective.
    I could foresee some potential problems in that 
predictability being lessened if there were confusion or 
blurring of lines as to the role between the Federal agency, 
us, and the States.
    Senator Sessions. I just think that is transparent. Now we 
are going to have a nearby city extort the power company for 
whatever ideas they may have that may not be in the public 
interest and result in much less likelihood, in my view, that 
we could have new, safe, clean nuclear plants built.
    I really think, colleagues, that creating a situation in 
which States, cities and counties can now impose regulations on 
building of a nuclear power plant or the decommissioning of it 
in retrospect is bad policy. I strongly oppose that. I just 
don't think that's good.
    Mr. Ostendorff. Senator, can I add something to that?
    Senator Sessions. Yes.
    Mr. Ostendorff. I came to this agency after I had been an 
official at the Department of Energy, following many years in 
the military. I would tell you that the transparency and 
openness of the NRC whereby we engage the entire American 
public. Last year we had 1,000 public meetings with States, 
local, communities, and anti-nuclear groups.
    There is a significant process by which they are able to 
bring their voices to bear and share their concerns. I think 
that isn't reflected upon often enough when these kinds of 
issues arise.
    Senator Sessions. Thank you.
    With regard to the pool storage, just because the rods are 
kept in a pool storage doesn't mean it is going to blow up or 
cause a fire, does it?
    Mr. Ostendorff. That is correct, if I can make two 
technical points. Studies of the pools at Fukushima, as the 
Chairman mentioned earlier in responding to a question, to date 
we are not aware of any damage to the pools at Fukushima 
Daiichi as far as structural integrity.
    The spent fuel pool study on which we based our decision 
had some significant conservatisms and we could certainly 
provide those for the record. The significant conservatisms 
showed that we were taking almost worse case analyses to look 
at the integrity.
    I would also add that the current initiatives being taken 
by the U.S. nuclear industry with respect to the flex program, 
mitigating strategies to add additional pumps, hoses, sources 
of water, as well as the spent fuel pool level instrumentation 
requirements that we have levied, those are other steps from a 
mitigation standpoint that have not been discussed today.
    Senator Sessions. Thank you. With regard to this whole 
process, the professional staff took insights and guidance, did 
they not, Madam Chairman, before they made a recommendation?
    Chairman Macfarlane. They did.
    Senator Sessions. Mr. Ostendorff, they recommended the 
process you have adopted for pool storage, a majority of the 
Commission of four to one voted to adopt that process.
    Ms. Svinicki, do you think that the staff considered the 
concerns Senator Markey and others have raised? Did the 
Commission consider those concerns before you made a decision?
    Ms. Svinicki. Yes, Senator, I agree with the observations 
and technical points made by Commissioner Ostendorff. Earlier 
Commissioner Apostolakis talked about the record that was 
available to us in this decision. I also had reliance on the 
same input as Commissioner Apostolakis previously testified to.
    Senator Sessions. If the staff or outside people had 
expressed concerns that were validated and you felt created a 
risk, would you have voted differently?
    Ms. Svinicki. Yes, Senator, again, as my colleagues have 
acknowledged, it was a very complex, large record. It was 
voluminous and I think each of us spent a considerable amount 
of time in evaluating that.
    The NRC staff indicated that they did a 30 year survey of 
other studies and research. It was a fulsome record, it was 
maybe a lot of material to go through but I think those of us 
who supported the staff's recommendations did so based on a 
thorough review of the matter before us.
    Senator Sessions. Would you say that the Commission is 
working better under Chairman Macfarlane than some of the 
difficulties you had previously?
    Ms. Svinicki. I do appreciate the acknowledgement from some 
of the members of the committee of Chairman Macfarlane's 
leadership. As the longest serving member of the Commission, I 
really commend her. She and I don't agree all the time, but her 
leadership has been tremendous and the collegial tone she set 
for our work I think has been such a wonderful thing.
    Senator Sessions. I note other members are nodding their 
heads in agreement with that. Congratulations, Chairman 
Macfarlane, you took over a difficult challenge. I am not sure 
you and I agree on all nuclear issues, but it was important 
that we get the Commission more collegial, more open and I 
believe you are achieving that.
    You have created and protected the Country here for a 
number of decades now without any serious accidents and you 
haven't hesitated to crack down on plants that have even small 
errors in safety.
    I know you hammered one in Alabama and I think you were 
probably right. Thank you for what you do and I know they 
improved immediately the errors noted by your team.
    Thank you, Madam Chairman.
    Senator Boxer. I want to thank the Commission. You'll be 
glad to know I just have a few more questions.
    I am glad there is a spirit of collegiality among all of 
you. That is fine. You ought to have it at the workplace so 
that whistleblowers don't get attacked and shut out. I want to 
thank Senator Markey for pointing that out.
    It is easy for five grownups to be collegial. I am very 
collegial with all my colleagues. We go at it, we certainly 
don't agree, but I really like them personally, so good for you 
for that. You need to take that spirit and infuse it so that 
whistleblowers aren't fearful. We look forward to your 
response.
    Mr. Magwood, you said you had no concerns with safety at 
any of our plants in this testimony today, is that correct?
    Mr. Magwood. I said I don't have concerns about safety at 
U.S. nuclear power plants.
    Senator Boxer. That's what I just said.
    Mr. Magwood. Yes. I am certainly not saying there are not 
issues that need to be looked into at specific plants.
    Senator Boxer. But you said I don't have any concerns post-
Fukushima. Let me ask you this question. Why did San Onofre 
shut down, why did Crystal River shut down, why did Vermont 
Yankee shut down, why did Kewaunee shut down, why is Oyster 
Creek going to close at the end of 2019 if they are all so 
honky dory?
    Mr. Magwood. I think you would find that for each of those 
plants there is a different reason. I could go through each one 
if you like but some were for financial reasons, others were 
for----
    Senator Boxer. Why don't you tell us about the ones that 
have safety problems because you said you had no concerns, so 
which one of those had safety problems?
    Mr. Magwood. I don't think any of those plants were shut 
down because they were not being operated safely. I think some 
of those plants were shut down because they had equipment 
issues----
    Senator Boxer. That's safety, isn't it?
    Mr. Magwood. No, it was never a safety issue.
    Senator Boxer. There wasn't a safety issue at San Onofre?
    Mr. Magwood. San Onofre's steam generators were flawed.
    Senator Boxer. They were leaking.
    Mr. Magwood. The plant was not--the plant was shut down 
after the leak was discovered.
    Senator Boxer. My point. When a commissioner says in the 
opening statement, I have no concerns, let's be clear, there 
are concerns. When Senator Sessions says, which we all hope is 
true, that everything is safe, we've never had a problem--we 
did have a couple, but this is what we all want, so we all want 
it to be true.
    Let me assure everyone here before Fukushima, the Japanese 
were saying the same things, Senator Sessions. The Japanese 
were saying we have safety in our nuclear industry and then 
Fukushima.
    If we do our jobs and you do yours, we can avoid something 
like that. When you tell us that you haven't done one of the 12 
recommendations of your own staff, not one has been 
implemented, that is disastrous. I think any one of the 
American people would say, wait, it's been 3 years.
    I am going to turn to another issue of travel. In our last 
hearing, you all committed to making your travel and meeting 
calendars available. You have all made some effort in response 
and I thank you but it is not really enough. Only Chairman 
Macfarlane's meeting calendar contains any detail about what 
each meeting was about.
    Until just a couple of days ago, Chairman Macfarlane and 
Commissioner Svinicki's calendars hadn't been updated since 
March. Not a single one of you provided advance public notice 
of any of your meetings.
    By contrast, the Consumer Product Safety Commission's 
meeting policy requires advance public disclosure of all 
meetings including travel. I am sure you know why this is the 
case. The American people need to know who you are meeting with 
because your decisions are very important.
    If an agency that regulates toys and other consumer 
products can do that disclosure, so can an agency that 
regulates nuclear reactors. We have bipartisan support for 
this.
    Going forward, will each of you commit to providing advance 
notice of your meetings and your travel and providing 
information about the topics intended to be discussed at each 
meeting? Let's start with the Chairman.
    Chairman Macfarlane. I commit to providing to the degree 
that I can because my schedule changes on a daily, sometimes 
hourly basis, as I am sure does yours.
    Senator Boxer. Sure.
    Chairman Macfarlane. Certainly advance notice of my travel 
and other meetings to the degree that I can.
    Senator Boxer. Commissioner Svinicki.
    Ms. Svinicki. Chairman Boxer, I would request the 
opportunity to respond for the record.
    Senator Boxer. Sure.
    Ms. Svinicki. Thank you.
    Senator Boxer. Commissioner Apostolakis.
    Mr. Apostolakis. I will not have any problem doing that.
    Senator Boxer. Thank you.
    Commissioner Magwood.
    Mr. Magwood. At my confirmation hearing, I promised to make 
my calendar available. I have done that from the moment I have 
been on the Commission. I have published my calendar 
continuously.
    I have not made a practice of putting a lot of detail in 
the calendar. I will look at doing that.
    Senator Boxer. Thank you because it is important that we 
know who you are meeting with.
    Commissioner Ostendorff.
    Mr. Ostendorff. Chairman Boxer, my calendar, as far as 
meetings with groups, is on my website. I have an open door 
policy. I understand your concern.
    Senator Boxer. Excellent.
    Commissioner Magwood, this is delicate but travel records 
you provided to this committee indicate you have spent 127 days 
on international travel since 2010. They also indicate that 
before you leave the Commission this summer, you will be 
spending more than 3 weeks visiting the United Arab Emirates, 
Malaysia, Japan and Brazil.
    Do you think it best serves the NRC safety mission to have 
you traveling the world just before you resign your seat?
    Mr. Magwood. I do think my travel is appropriate. First, 
let me indicate that I am not going to Brazil. That was an 
invitation I was considering and have ultimately decided not to 
take that trip. The other visits I think are very important.
    Despite the fact that I am stepping down from the 
Commission later this summer, the presence of an NRC 
commissioner in many of these countries is important whether it 
is me or Commissioners Ostendorff or Apostolakis. It doesn't 
really matter which of us it is.
    The fact that the United States Nuclear Regulatory 
Commission goes to these countries and represents the causes of 
regulatory independence is very important to these people, so I 
think my travels are important.
    Senator Boxer. I am seriously interested. In the United 
Arab Emirates, do they have nuclear power there? What is the 
issue there you will be addressing in that country?
    Mr. Magwood. I hesitate to get into a lot of detail in an 
open session. Let me say that we are watching very closely as a 
new regulator is assembled. They have a lot of challenges. Some 
of them are cultural challenges. It is a good time for someone 
from the NRC to visit again to reinforce some of the messages 
about regulatory independence as they both assemble a new 
regulator and assemble nuclear power plants which are under 
construction.
    Senator Boxer. Independence from?
    Mr. Magwood. From other policy issues.
    Senator Boxer. I don't understand that but that is OK. 
Malaysia, what is happening over there?
    Mr. Magwood. The same sort of thing. Malaysia is 
considering new nuclear power plants. They have a regulator 
that is in the process of being restructured. Our staff thinks 
it is a good time for an NRC commissioner to go and talk about 
issues such as regulatory independence. I was happy to try to 
do that.
    Senator Boxer. Japan, I think is good. Are you going to go 
and get a briefing on Fukushima?
    Mr. Magwood. I am actually planning to visit Fukushima 
again.
    Senator Boxer. Good.
    Let me say this. I think that makes a lot of sense. 
Everybody makes a decision but I want to speak as someone who 
cares a lot about the safety at the San Onofre plant. You 
haven't even seen the documents I gave to Mr. Ostendorff. There 
is so much to be done.
    Not one of the 12 recommendations has gone into place. The 
operator at San Onofre is asking for exemptions from all kinds 
of emergency planning when a fire was half a mile away. I need 
your leadership here.
    Maybe your leadership is more important in the United Arab 
Emirates but from my point of view, I am being honest here, you 
have a backlog. The Chairman couldn't answer a lot of questions 
because she has to get back to me. I just hope you will 
consider this.
    In any event, I want to thank you all. I know these 
hearings are very difficult because you have made decisions, as 
the Chairman said, and you are done with looking at spent fuel, 
you voted. No, you are not done because we have oversight over 
you and it is uncomfortable.
    We are going to keep on doing it. I think this is our ninth 
since Fukushima and we are going to keep it up.
    I want to thank all colleagues and we stand adjourned.
    [Whereupon, at 11:22 a.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]

             Statement of Hon. Thomas Carper, U.S. Senator 
                       from the State of Delaware

    EPW Hearing: NRC's Implementation of the Fukushima Near-
Term Task Force Recommendations and other Actions to Enhance & 
Maintain Nuclear Safety. Thank you Chairman Boxer for holding 
this very important hearing. I want to welcome our witnesses 
and also congratulate Senator Whitehouse for taking the helm of 
the Subcommittee on Clean Air and Nuclear Safety.
    Just like Chairmen Boxer and Whitehouse, I am a firm 
believer that climate change is occurring and humans are the 
primary drivers of it because of our carbon pollution. But you 
don't have to take our word for it. The leading scientists of 
our time agree. Last month, a team of more than 300 climate 
scientists issued the third National Climate Assessment Report. 
It is the most comprehensive study on the impact of climate 
change on the United States. The report finds clear correlation 
between human influence, predominantly the burning of fossil 
fuel, and increasing U.S. temperatures.
    The devastating consequences of climate change are too 
great for any of us to sit on the sidelines. It is with this 
potential future in mind that I applaud the EPA's new Clean 
Power Plan to cut carbon emissions from the nation's existing 
power plants by 30 percent by 2030. This proposal moves our 
nation a step toward protecting our environment and our 
economy. But in order to meet the president's carbon emission 
reduction goals, nuclear energy must be part of our energy mix. 
Without nuclear energy those goals will be nearly impossible to 
achieve.
    In recent years, we have seen the closure of several plants 
and face the potential retirement of up to 6 percent of our 
nuclear generation in the foreseeable future. According to the 
EPA, 6 percent of nuclear capacity is equal to avoiding 
releasing 200 to 300 million metric tons of CO<INF>2</INF> over 
a 10-year period. This is equivalent to the CO<INF>2</INF> 2 
emissions of 25 million average family households. So, it is 
critical that we work together to ensure a safe and 
economically viable nuclear fleet. With nuclear power as part 
of our ``all of the above'' energy policy, we benefit from 
passing on cleaner air and a more hospitable climate to future 
generations. But to have nuclear energy in this country we must 
continue to have a safe nuclear fleet and have a strong, 
independent agency overseeing the industry.
    I welcome back the NRC Commissioners to this committee and 
look forward to hearing an update on recent safety concerns and 
actions. I look forward to working with all of you to ensure we 
continue to have a safe and efficient regulatory regime to keep 
this important industry alive as we move toward a cleaner 
energy future.

                                 [all]
</pre></body></html>
